M

IJ

INSTITUTE FOR JUSTICE

July 9, 2021

Via Electronic Filing and Overnight Mail
Hon. Scott S. Harris, Clerk of Court

Supreme Court of the United States

1 First Street, NE

Washington, DC 20543

Re: David Carson, et al. v. A. Pender Makin,
Docket No. 20-1088

Dear Mr. Harris:

The Court granted the petition for certiorari in this case on July 2,
2021. Because of scheduling conflicts created by ongoing litigation matters,
the parties jointly request modest 2.5-week extensions of time to file
petitioner's opening brief and the joint appendix, as well as respondent’s
merits brief. Pursuant to Rule 30.4 of this Court’s Rules and subject to the
Court’s approval, we propose the following briefing schedule:

‘Petitioners’ Opening Brief and Joint Appendix: September 3, 2021
Respondent's Response Brief: October 22, 2021

Under this Court’s rules, petitioner’s reply brief would be due 30 days later
(or at the time specified in Rule 25.3). Counsel for Petitioners and
Respondent consent to these extensions of time.

Respectfully,

—

Michael Bindas
Counsel for Petitioners

Ce: Sarah Forster, Counsel for Respondents
(via U.S. mail and email: sarah.forster@maine.gov)

ARLINGTON AUSTIN CHICAGO MIAMI MINNEAPOLIS SEATTLE TEMPE

600 University Street, Suite 1730 Searle, WA 98101 (206) 957-1300 (206) 937-1301 Fax
general@ij.org — www.ij.org/washington
